BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
Amici Curiae Members of the United States Senate
Supporting Petitioners in 20-1088, David Carson, as
parent and next friend of O.C., et al. v. A. Pender
Makin, in her official capacity as Commissioner of the
Maine Department of Education, were sent via Next
Day Service to the U.S. Supreme Court, and via Next
Day Service to the following parties listed below, this
10th day of September, 2021:
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
(206) 95 7 -1300
mbindas@ij.org
Counsel for Petitioners
Sarah Ann Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Joshua D. Davey
Counsel of Record
Troutman Pepper Hamilton Sanders LLP
301 S. College Street, 34th Floor
Charlotte, NC 28202
(704) 916-1503
josh ua.davey@troutman.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2021.

Donna J. Wolf
Becker Gallagher Legal Publish ·, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.
Date:

lf Jo ,, Jo;) /

~

cf?4 ,tJ' ~

Notary Public

·

[seal]

JOHN D. GALLAGHER
Nota1 y Public, State of Ohio
My Commission Expir,.:s
rP.br112ry 14, 2i2'3

